    July 21, 2006




Acquisition
Procurement Procedures Used for C-17
Globemaster III Sustainment Partnership
Total System Support
(D-2006-101)




              Department of Defense
             Office of Inspector General
 Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
ALC                   Air Logistics Center
BCA                   Business Case Analysis
CBA                   Cost Benefit Analysis
SAF/GC                Secretary of the Air Force/General Counsel
                             INSPECTOR GENERAL
                            DEPARTMENTOFDEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202-4704




                                                                           July 2 1,2006
MEMORANDUM FOR ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
SUBJECT: Report on Procurement Procedures Used for C-17 Globemaster I11
         Sustainment Partnership Total System Support
         (Report No. D-2006-10 1)

      We are providing this report for information and use. We considered
management comments on a draft of this report in preparing the final report.
       Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah L. Carros at (703) 604-9217 (DSN 664-92 17) or Ms. Beth K. Schaefer at
(703) 604-9232 (DSN 664-9232). See Appendix C for the report distribution. The team
members are listed inside the back cover.



                                        .             & h b
                                           ichard B. Jolliffe
                                    '~ssistantInspector General
                                Acquisition and Contract Management
                    Department of Defense Office of Inspector General
Report No. D2006-101                                                             July 21, 2006
      (Project No. D2005-D000CK-0209.000)

             Procurement Procedures Used for C-17 Globemaster III
                 Sustainment Partnership Total System Support

                                      Executive Summary

Who Should Read This Report and Why? Acquisition, contracting, and logistics
personnel within DoD and the Military Departments should read this report because it
concerns acquisition decisions that affect the long-term sustainment of the C-17
Globemaster III.
Background. The C-17 is a jet-powered strategic airlifter with a cabin offering large-
volume capacity and a rear-loading assembly to accommodate wheeled or tracked
vehicles. The aircraft was designed to airlift and airdrop loads, including armored
vehicles, directly into a combat zone. The C-17 Globemaster III was developed by
McDonnell Douglas Corporation, a wholly owned subsidiary of The Boeing Company
(Boeing).
On October 1, 2003, the Air Force awarded McDonnell Douglas a letter contract
(contract no. FA8614-04-C-2004) to provide sustainment for the C-17 through December
31, 2003, for an amount not to exceed $259 million. The long-term sustainment contract
was definitized on July 22, 2004, for $871 million for FY 2004, and a potential value of
almost $5 billion (base year and four priced annual options). The contract, including the
base year, four priced annual options, and three unpriced options, runs from FY 2004
through FY 2011. The Aeronautical Systems Center at Wright Patterson Air Force Base
is the contracting activity.
Results. Air Force officials did not use an appropriate methodology for making the
acquisition decision to procure contractor total system support for the C-17 aircraft.
Specifically, the Air Force decision to award total system support responsibility was not
based on a business case analysis. As a result, the Air Force awarded an $871 million
long-term contract (with a potential value of almost $5 billion) without proper and
necessary support and did not make fully informed sustainment strategy decisions. These
decisions will impact future options for sustaining the C-17 when aircraft production is
complete. Furthermore, unless the Air Force develops and completes a thorough
business case analysis, the Air Force will increase the risk of implementing for the life of
the aircraft a sustainment strategy that does not achieve best value. The business case
analysis should be an objective analysis that thoroughly evaluates multiple sustainment
options for the C-17 aircraft and ensures that the Government makes a knowledgeable
best value decision for long-term sustainment (finding A).
Boeing invested in the Air Logistics Centers∗ through the C-17 Globemaster III
Sustainment Partnership contract without an adequate legal basis to support the
investment. Specifically, the contract requires Boeing to invest approximately

∗
    The Air Logistics Centers include Oklahoma City, Warner Robins, and Ogden.
$62 million in the Air Logistics Centers, primarily in the form of capital expenditures.
As a result, the Air Force improperly augmented its congressional appropriation,
potentially obscured true costs of the C-17 program, and potentially set a precedent for
DoD contractors to make inappropriate financial investments at Government facilities.
The Air Force needs to discontinue enforcing the requirements for investing in the C-17
Globemaster III Sustainment Partnership contract. In addition, the Air Force needs to
determine what investment items have been delivered to the Air Logistics Centers,
request the Defense Contract Audit Agency to validate the amount that Boeing has spent
on investments in the Air Logistics Centers, make any necessary accounting corrections,
and take other management actions as required (finding B). See the Finding sections for
the detailed recommendations.
Management Comments and Audit Response. The Military Deputy, Office of the
Assistant Secretary of the Air Force (Acquisition) concurred with the recommendation to
conduct and complete a thorough business case analysis. The Air Force comments are
responsive to the recommendation. As a result of management comments, we changed
the requirement for a completed business case analysis to the second quarter FY 2009.
On March 14, 2006, the Military Deputy nonconcurred with the recommendation to
discontinue the investment requirement and the recommendation to identify, validate, and
correct actions taken as a result of the investment; however, on July 13, 2006, the
Military Deputy, Office of the Assistant Secretary of the Air Force (Acquisition)
submitted additional comments stating that the Air Force will modify the current
contractual arrangement to reflect sound management practices consistent with the
recommendation. Specifically, the Air Force will develop new contract clauses and/or
modify all appropriate C-17 Globemaster III Sustainment Partnership contract clauses to
identify what core capability the investment will cover; specify the work to be performed
at the Air Logistics Centers using the investment resources and track with appropriate
metrics; and identify the connection between the investment resources and the core work
being performed. The Military Deputy further stated that the Air Force will develop
policy that will require future Air Force public-private partnership contracts to identify
the resources being procured with private investment. The investments will be linked to
the enhancement of specific core capabilities and the core work to be performed for
contractors. The Military Deputy stated that the new policy will be in place within
6 months of the date of this report. The additional Air Force comments are responsive
and meet the intent of the recommendation.
Although not required to comment, the Deputy General Counsel (Fiscal) provided
comments in support of the Air Force legal opinion. The Deputy General Counsel
(Fiscal) stated that under a public-private partnership agreement executed pursuant to
section 2474(b)(2)(D), title 10, United States Code (10 U.S.C. 2474(b)(2)(D)), the
Services may accept investments in the form of material, equipment, labor, and data from
the private businesses, without impermissibly augmenting their appropriations. We
disagreed with the DoD Office of the General Counsel comments. We contended that the
meaning of 10 U.S.C. 2474(b)(2)(D) was clear in the context of the entire statute, that
Congress was providing definite and limited tools whereby the Air Logistics Centers
could sell their excess capacity to industry and thereby become centers of excellence and
invest the funds received in plant, equipment, and commercial business ventures.
However, the July 13, 2006 management comments satisfied our overall concerns, and
therefore, we consider this issue closed.
A discussion of the management comments is in the Finding section of the report, and the
complete text is in the Management Comments section.

                                            ii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   2

Findings
     A.         Acquisition Decision for Total System Support Sustainment   3
     B.         Contractor Investment in Partnering                         8

Appendixes
     A.         Scope and Methodology                                       14
                  Prior Coverage                                            15
     B.         C-17 Sustainment Strategy Memorandum                        16
     C.         Report Distribution                                         18

Management Comments
     Department of the Air Force                                            19
     Department of Defense Office of General Counsel                        25
Background
    The C-17 is a jet-powered strategic airlifter with a cabin offering large-volume
    capacity and a rear-loading assembly to accommodate wheeled or tracked
    vehicles. The aircraft was designed to airlift and airdrop loads, including armored
    vehicles, directly into a combat zone. It was developed by McDonnell Douglas
    Corporation, a wholly owned subsidiary of The Boeing Company (Boeing). See
    Figure below.

    On October 1, 2003, the Air Force awarded McDonnell Douglas a letter contract
    (contract no. FA8614-04-C-2004) to provide sustainment for the C-17 through
    December 31, 2003, for an amount not to exceed $259 million. The long-term
    sustainment contract was definitized on July 22, 2004, for $871 million for
    FY 2004, and a potential value of almost $5 billion (base year and four priced
    annual options). The contract, including the base year, four priced annual
    options, and three unpriced options, runs from FY 2004 through FY 2011. The
    Aeronautical Systems Center at Wright Patterson Air Force Base is the
    contracting activity.




                             C-17 Globemaster III Aircraft




                                         1
Objectives
    Our overall audit objective was to determine whether the C-17 Globemaster III
    Sustainment Partnership contract was procured in accordance with the Federal
    Acquisition Regulation. Specifically, we assessed whether Air Force officials
    used an appropriate methodology and rationale for making the acquisition
    decision to procure contractor total system support for the C-17. See Appendix A
    for a discussion of the scope and methodology and prior coverage related to the
    audit objectives.




                                       2
                    A. Acquisition Decision for Total System
                       Support Sustainment
                    Air Force officials did not use an appropriate methodology for making the
                    acquisition decision to procure contractor total system support for the
                    C-17 aircraft. Specifically, the Air Force decision to award total system
                    support responsibility was not based on a business case analysis (BCA).
                    This occurred because senior Air Force officials directed the C-17
                    Program Office to focus efforts solely on a partnership with Boeing
                    without fully considering additional sustainment strategies. As a result,
                    the Air Force awarded an $871 million long-term contract (with a
                    potential value of almost $5 billion) without proper and necessary support
                    and did not make fully informed sustainment strategy decisions. These
                    decisions will impact future options for sustaining the C-17 when aircraft
                    production is complete. Furthermore, unless the Air Force develops and
                    completes a thorough BCA, the Air Force will increase the risk of
                    implementing for the life of the aircraft a sustainment strategy that does
                    not achieve best value.


C-17 Sustainment History
           The Air Force originally planned to sustain the C-17 organically at San Antonio
           Air Logistics Center (ALC). However, in 1995, the Base Realignment and
           Closure Commission decided to close the San Antonio ALC. In 1996, in response
           to the closure, an Air Force General Officer Steering Group recommended
           implementing Flexible Sustainment Interim Contractor Logistics Support for the
           C-17 program and delaying the long-term sustainment decision until FY 2003,
           2 years before the scheduled end of production of the aircraft.1 The Flexible
           Sustainment strategy provided the Air Force near-term sustainment flexibility
           while preserving the options for establishing an organic depot, competing the
           contract in a contractor logistics support environment, or continuing the current
           contract strategy if it was determined to be the best value. In 1997, the Air Force
           Acquisition Strategy Panel approved the C-17 Flexible Sustainment strategy.

           In its FY 1999 Report to Congress, the Air Force reported that it would evaluate
           the strengths of contractor and Government support and adopt an organic depot
           support strategy, competitively award a follow-on contract, or continue a long-
           term Flexible Sustainment contract with Boeing for C-17 long-term sustainment.

           In 1999, the C-17 Program Office awarded a contract for the completion of a cost
           benefit analysis (CBA) that would demonstrate which sustainment approach for
           maintaining and supporting the C-17 weapon program would achieve the greatest
           cost savings and performance improvements. The CBA was to compare the costs
           for organic and contractor repair alternatives over the economic life of the system,
           including recurring and nonrecurring costs.

1
    The scheduled end of production for the C-17 was later changed to FY 2008.

                                                      3
C-17 Sustainment Contract Decision
           Air Force officials did not use an appropriate methodology or rationale for
           making the acquisition decision to procure contractor total system support for the
           C-17 aircraft. Specifically, the Air Force decision to award total system support
           responsibility to Boeing was not based on a BCA.

           Business Case Analysis Guidance. The DoD “Performance-Based Logistics
           Program Manager’s Product Support Guide” (the Guide), November 10, 2004,2
           states that a BCA provides a best value analysis, considering not only cost, but
           also other quantifiable and nonquantifiable factors supporting an investment
           decision. According to the Guide, a BCA should be developed in an unbiased
           manner and not be constructed to justify a preordained decision. The BCA must
           be independent and able to withstand rigorous analysis and review by
           independent audit agencies. Specifically, the Guide explains that a BCA is an
           expanded CBA used in the initial decision to invest in a project. The BCA
           specifically guides the decision for selecting among alternative approaches. The
           BCA goes beyond cost benefit or economic analyses by linking each alternative
           to how it fulfills strategic objectives of the program. The Guide states that a BCA
           should determine the relative costs versus benefits of different support strategies.

           In addition, Section 346 of Public Law 105-261, “Strom Thurmond National
           Defense Authorization Act for FY 1999,” October 17, 1998, as amended by
           Section 336 of Public Law 106-65, October 5, 1999, states that the Secretary of
           Defense or the head of a Military Department cannot enter a prime vendor
           contract for depot-level maintenance and repair of a weapon system, or other
           military equipment, before the end of a 30-day waiting period after submitting to
           Congress a report describing the nature, cost, impact, and competition procedures
           used to award the prime vendor support contract. The report should include an
           analysis of costs and benefits that demonstrates that using the prime vendor
           contract will result in savings to the Government over the life of the contract. In
           its FY 1999 Report to Congress, the Air Force stated that the Flexible
           Sustainment acquisition strategy preserved the three sustainment options pending
           the long-term depot support decision in FY 2003. However, the Air Force did not
           submit a report to Congress in accordance with the requirements of Section 346 of
           Public Law 105-261 when contracting officials awarded the total system support
           responsibility contract to Boeing in FY 2004.

           C-17 Gatekeeper Reviews. The C-17 Program Office held periodic meetings for
           senior officials to discuss C-17 long-term sustainment direction and progress.
           The senior officials, called “Gatekeepers,” included the following offices: Office
           of the Assistant Secretary of the Air Force for Acquisition, Office of the Deputy
           Chief of Staff for Installations and Logistics, Headquarters Air Force Materiel
           Command, Headquarters Air Mobility Command, Program Executive Office for
           Airlift and Trainers, C-17 Program Office, and Boeing. Those meetings,

2
    The Guide supersedes DoD “Product Support for the 21st Century: A Program Manager’s Guide to
     Buying Performance,” November 6, 2001. The November 2001 guide recommended that program
     managers conduct a BCA to decide whether they should implement performance-based logistics for new
     and legacy systems.

                                                     4
           subsequently referred to as Gatekeeper Reviews, were conducted approximately
           every 60 days to guide the program toward a mature FY 2003 long-term
           sustainment decision.

                   July 2001 Gatekeeper Review. During a July 31, 2001, Gatekeeper
           Review, the C-17 Program Director announced that Boeing would retain total
           system support responsibility for the C-17 life cycle. The C-17 Program Director
           further stated that Boeing would partner with the ALCs3 for a portion of the depot
           maintenance. At the same review, senior Air Force officials determined that the
           development of a C-17 CBA was no longer applicable because the CBA was
           creating a competitive environment between the ALCs and the contractor. Senior
           Air Force officials made these program decisions without a CBA and before the
           C-17 Program Office had completed a BCA. Senior Air Force officials also
           directed the C-17 Program Office to focus its efforts on a single strategy without
           fully considering additional sustainment options. This decision eliminated the
           opportunity to explore other sustainment approaches that may have produced
           greater cost savings.

                  Program Office Directed to Prepare BCA to Support Decision. The
           Air Force Principal Deputy Assistant Secretary for Acquisition and Management
           and the Deputy Chief of Staff for Installations and Logistics reiterated the July 31,
           2001, decisions in a memorandum on January 31, 2002 (see Appendix B). The
           January 31, 2002, memorandum also directed the C-17 Program Office to prepare
           a BCA supporting the decision for Boeing to have total system support
           responsibility for the C-17 life cycle.

           Long-Term Sustainment BCA. The C-17 Long-Term Sustainment BCA, dated
           June 6, 2003, documented the sustainment approach directed by Air Force
           officials and provided analysis supporting a performance-based partnership
           between the Air Force and Boeing. However, the BCA was incomplete because it
           focused on a Government-contractor sustainment partnership. The BCA did not
           compare C-17 sustainment costs with those of comparable aircraft, did not
           consider the assignment of noncore workload requirements that are essential to
           determining the relative costs versus benefits of different support strategies, and
           made no substantial evaluation of organic or contractor total sustainment
           capabilities.

                   Focus of the BCA. The BCA focused on a long-term Government-
           contractor sustainment partnership. The BCA summarized how the partnership
           was developed and described cost estimates associated with the partnership. The
           BCA stated that the objective of the partnership was to meet funded performance
           requirements issued by the Air Force while reducing currently planned and
           budgeted operating costs and providing value to the Air Force. One of the key
           topics excluded from the BCA was a CBA comparing costs for multiple
           sustainment options. A CBA should have compared the costs for organic and
           contractor repair alternatives over the economic life of the aircraft and included
           both recurring and nonrecurring costs.


3
    The ALCs include Oklahoma City, Warner Robins, and Ogden.

                                                  5
            Comparison With Other Aircraft. The C-17 BCA did not compare
    estimated C-17 sustainment costs with sustainment costs of other comparable
    aircraft. However, in April 2005, the Air Force Cost Analysis Agency performed
    a comparison of the C-17 with comparable Air Force aircraft. The sum of cost
    per flying hour for the C-17 was reported to be much lower than that of the C-5
    aircraft and higher than that of the C-141 aircraft when projected over an 11-year
    period. These results were based on full contractor logistics support for the C-17
    and mostly organic support for the other two aircraft. The analysis concluded that
    C-17 contractor logistics support costs, when compared with the cost of other
    organically sustained aircraft, were reasonable with few exceptions.

            Core Requirement Workload. Section 2464, title 10, United States
    Code requires DoD to maintain a core logistics capability of technical
    competencies and resources to meet national defense situations. The section
    states that core workloads include capabilities necessary to maintain and repair
    weapon systems and other military equipment identified as necessary to enable
    the Armed Forces to fulfill strategic and contingency plans. According to the Air
    Force Materiel Command Core Partnering Policy Implementation, noncore
    workloads are duties that do not satisfy a core capability and are managed or
    repaired at the depot level through a Government-contractor sustainment
    partnership agreement. The C-17 BCA states that core workloads are reserved for
    organic repair at the ALCs while all noncore depot maintenance workloads will
    be allocated in the future based on meeting performance requirements at best
    value.

    According to the C-17 BCA, the C-17 Program Office restricted the initial
    partnership efforts to core workloads and did not discuss noncore workloads.
    According to the BCA, core capabilities will be transitioned to organic repair as
    they evolve at the ALCs and are biennially approved by the Secretary of the Air
    Force. Although approximately 95 percent of the C-17 workload is considered
    core, the C-17 Program Office should have evaluated both core and noncore
    workloads before making a long-term sustainment decision.


Conclusion
    The Air Force awarded a long-term contract without proper and necessary support
    and did not make fully informed sustainment strategy decisions. These decisions
    will impact future options for sustaining the C-17 when aircraft production is
    complete. Without comparing C-17 sustainment costs with costs of comparable
    aircraft, thoroughly evaluating the option of organic sustainment, or including
    both core and noncore items in its analysis, the C-17 Program Office has no
    assurance that it selected the most suitable sustainment option. Furthermore,
    unless the Air Force develops and completes a thorough BCA, the Air Force will
    increase the risk of implementing for the life of the aircraft a sustainment strategy
    that may not achieve best value.




                                          6
Recommendation, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation A. to change the completion date of the business case
    analysis to the second quarter FY 2009.

    Recommendation A. We recommend that the Commander, Aeronautical
    Systems Center, Air Force Materiel Command direct the Program Director,
    C-17 Program Office to conduct and complete a thorough business case
    analysis before the end of second quarter FY 2009. The business case
    analysis should be an objective analysis that thoroughly evaluates multiple
    sustainment options for the C-17 aircraft and ensures that the Government
    makes a knowledgeable best value decision for long-term sustainment.

    Management Comments. The Military Deputy, Office of the Assistant
    Secretary of the Air Force (Acquisition) concurred. However, the Military
    Deputy requested a revised completion date for the business case analysis.
    According to the Military Deputy, a key component of the business case analysis
    is a Post Production Support Plan. As the Air Force approaches a production
    shutdown decision, they plan to contract with Boeing to develop the Post
    Production Support Plan and complete the plan in the second quarter of FY 2008.
    The plan will address the production shutdown impact on Boeing’s Long Beach
    facility and the post-production environment for its supplier team. The Military
    Deputy requested that we change the completion date requirement for the
    business case analysis to the second quarter FY 2009.

    Audit Response. The comments are responsive, and no additional comments are
    required.




                                        7
                    B. Contractor Investment in Partnering
                    Boeing invested in the ALCs through the Globemaster III Sustainment
                    Partnership contract without an adequate legal basis to support the
                    investment. Specifically, the contract requires Boeing to invest
                    approximately $62 million in the ALCs, primarily in the form of capital
                    expenditures. This occurred because the former Secretary of the Air Force
                    directed the C-17 Gatekeepers to construct an arrangement with Boeing to
                    increase its efforts in the partnership through an investment into the ALCs.
                    As a result, the Air Force improperly augmented its congressional
                    appropriation, potentially obscured true costs of the C-17 program, and
                    potentially set a precedent for DoD contractors to make inappropriate
                    financial investments at Government facilities.


Contractor Investment
           The Air Force required Boeing to invest in the ALCs through the Globemaster III
           Sustainment Partnership contract without an adequate legal basis to support the
           investment. Specifically, the contract requires Boeing to invest approximately
           $62 million in the ALCs, primarily in the form of capital expenditures to increase
           organic capabilities related to C-17 sustainment.

           Contract Requirement for Investment. The contracting office developed
           clause H-029 of the C-17 Globemaster III Sustainment Partnership contract
           requiring the contractor to make investments targeted at increasing ALC
           capabilities related to C-17 sustainment. The C-17 Program Office and Boeing
           agreed that Boeing would invest $62 million over 5 years. The contract describes
           the investments as primarily capital expenditures, which may include material,
           labor, and data necessary to enhance C-17 organic maintenance at the ALCs.
           According to the contract clause, investment items come under the exclusive
           possession and control of the Government. The contractor is allowed to charge
           depreciation on the investments on this contract and other contracts. However,
           once fully depreciated, title to the investment passes to the Government.

                   Investment Equipment. According to Warner Robins ALC personnel,
           examples of equipment in which Boeing plans to invest include auxiliary power
           unit generators, landing gear repair equipment, and wing maintenance stands. As
           of October 31, 2005, Boeing had committed about $29 million, of which it had
           spent $5 million, in capital equipment and administrative costs for its investment
           into the ALCs.4 Boeing is required to segregate the commitments and costs for
           the investment items.

                   Depreciation of Equipment. Although the costs of the investments are
           not included in the price of the C-17 Globemaster III Sustainment Partnership
           contract, the contractor is allowed to indirectly charge the Government

4
    Amounts are contractor assertions; the Defense Contract Audit Agency has not verified the amounts with
    contractor accounting records.

                                                      8
depreciation expense for the capital investment items. The contract states that the
Government will recognize depreciation expense for the investment items as
indirect costs under this and other Government contracts to the extent those costs
are otherwise allowable, allocable, and included in Boeing’s overhead rates.
However, Boeing has asserted that depreciation expenses referred to in contract
clause H-029, computed using Boeing’s established depreciation methods, will
not be allocated to Government contracts but instead be recognized as a direct
write-off to cost of sales for the contract. Boeing has also asserted that it cannot
charge depreciation of the investment items to Government contracts because the
capital investment items procured under clause H-029 are for the sole use of the
ALCs performing C-17 sustainment activities and, therefore, are not allocable to
other Boeing contracts. In addition, the allocation of depreciation for the capital
investments to other contracts may result in a noncompliance with Cost
Accounting Standard 418, “Allocation of Direct and Indirect Costs.” Boeing
stated that as of November 17, 2005, no capital investment items being built
under the contract have been physically completed and placed into service at the
ALCs.

Secretary of the Air Force/General Counsel Legal Opinion. On November 21,
2003, the Secretary of the Air Force/General Counsel (SAF/GC) issued a
memorandum on the C-17 contractor investment in the ALCs. The SAF/GC
found that the investment plan was consistent with applicable laws and policies.
To determine compliance, SAF/GC reviewed three areas: core capability, fiscal
law, and Office of the Secretary of Defense policy. SAF/GC found the
investment items could be used to support the statutory requirement for a core
capability. Additionally, SAF/GC stated that the Air Force did not improperly
augment its appropriation because Boeing receives a benefit for its investment.
Specifically, SAF/GC cited the ability to satisfy performance obligations and
indirectly allocate depreciation expense to the Government as Boeing’s benefits.

The SAF/GC memorandum also referenced a May 16, 2001, Under Secretary of
Defense (Acquisition and Technology) memorandum that stated DoD contractors
should not be encouraged or required to supplement DoD appropriations by
bearing a portion of the contract cost for research and development contracts.
SAF/GC stated that the policy was specifically related to contractor investment in
research and development contracts, and while the policy could apply to the C-17
investment, it should not be applied because Boeing will benefit from the
investment and associated depreciation costs.

Sufficiency of Legal Basis. SAF/GC found that the investment plan was
consistent with applicable law and policy; however, we found that the investment
was not legally sufficient. Under the Constitution, Congress provides funding for
the activities of the Government. As a general rule, agencies may not accept
funds from other sources without statutory authority. This policy prevents an
agency from undercutting congressional power by exceeding the amount
Congress has appropriated for a specific program. One such authority is the
agency’s authority to accept gifts. However, it is clear that the investments were
not accepted as a gift under the Air Force’s gift authority. The Air Force did not
provide a statutory basis, authority, or exception as a basis for accepting the
contractor investments. Without an appropriate legal basis for accepting the


                                     9
     investments, they would be deemed an improper augmentation of the Air Force
     appropriations.

     Additionally, the Air Force potentially obscured true costs of the C-17 program
     by allowing Boeing to spread depreciation costs for the C-17 investment items as
     overhead to all of its Government contracts. By allowing costs for the C-17
     investments to be spread across multiple contracts, the Air Force is potentially
     obscuring its true cost of the investment items from Congress and requiring other
     Government organizations to fund the ALC acquisition of capital equipment and
     other items for sustaining the C-17.

     Lastly, the Air Force potentially set a precedent for DoD contractors to make
     inappropriate financial investments at Government facilities. According to Air
     Force personnel, the former Secretary of the Air Force planned to use the C-17
     contractor investment as a precedent for other Government organizations.


Secretary of the Air Force Direction
     The former Secretary of the Air Force directed the C-17 Gatekeepers to construct
     an arrangement with Boeing to increase Boeing efforts in the partnership through
     an investment into the ALCs. According to the C-17 contracting office,
     negotiations for the contract investment occurred at a senior level outside of the
     purview of the C-17 contracting office.

     Secretary of the Air Force Briefing on C-17 Sustainment Decision. On
     September 22, 2003, the C-17 Program Office staff briefed the Secretary of the
     Air Force on the long-term sustainment decision for the aircraft. The C-17
     Program Director recommended that the Air Force sustain the C-17 through
     contractor logistics support with total system support responsibility and
     implement partnerships between Boeing and the ALCs.

     According to the C-17 Program Director, the former Secretary of the Air Force
     had concerns with the proposed C-17 long-term sustainment strategy and directed
     the C-17 Gatekeepers to revise the sustainment strategy. The former Secretary of
     the Air Force stated that long-term sustainment requires contractor investments
     into the partnership and that he expected Boeing to make investments into the
     ALCs. Further, the former Secretary of the Air Force anticipated that his
     suggested approach to partnering would be a model for other programs to follow.

     Investment Negotiation. The former Secretary of the Air Force delayed the
     official long-term sustainment decision and directed the C-17 Gatekeepers to
     revise the long-term sustainment strategy to provide for an investment by Boeing
     into the ALCs. On November 18, 2003, the Deputy Chief of Staff for
     Installations and Logistics informed the former Secretary of the Air Force that the
     C-17 Program Office officials had negotiated an arrangement with Boeing to
     invest $62 million into the ALCs over 5 years.




                                         10
Other Matter of Interest
     The Air Force has not incorporated into the C-17 Globemaster III Sustainment
     Partnership contract a Boeing core workload performance requirement to ensure
     the ALCs receive core items, nor has it incorporated contract metrics to track
     Boeing’s compliance. The nonbinding preamble to the C-17 sustainment contract
     states that Boeing will be responsible, as a matter of contract, for ensuring that
     C-17 workload identified as core by Air Force Materiel Command is performed
     by the designated ALC. An attachment to the contract establishes core candidate
     workload for the ALCs. The C-17 Program Office stated that Boeing will be held
     responsible for ensuring the ALCs receive and perform core workload once the
     ALCs become qualified sources of repair for items listed in the attachment to the
     contract. The C-17 Program Office also stated that the Boeing performance
     requirement will be established in the contract by exercise of ALC Partnering
     Support Implementation Options.


Conclusion
     Although the intent of Boeing’s investment into the ALCs was to increase organic
     capabilities related to C-17 sustainment and increase Boeing’s efforts in the
     partnership, the investment was not legally sufficient. Without sufficient legal
     basis for the contractor investment into the ALCs, the Air Force improperly
     augmented its congressional appropriation, potentially obscured true costs of the
     C-17 program, and potentially set a precedent for DoD contractors to make
     inappropriate financial investments at Government facilities.


Recommendations, Management Comments, and Audit
  Response
     B. We recommend that the Assistant Secretary of the Air Force
     (Acquisition) direct the C-17 contracting office to:

           1. Discontinue requirements of Clause H-029, “Boeing Investment in
     Partnering,” of the C-17 Globemaster III Sustainment Partnership contract.

     Management Comments. On March 14, 2006, the Military Deputy, Office of
     the Assistant Secretary of the Air Force (Acquisition) nonconcurred. The
     Military Deputy stated that the Air Force followed applicable guidance consistent
     with Public Law and DoD policy in formulating their long-term sustainment
     strategy. The Military Deputy cited section 2474, title 10, United States Code (10
     U.S.C. 2474) as providing that the Secretary may authorize and encourage a
     Center of Industrial and Technical Excellence (i.e., designated Air Logistics
     Centers) to enter into a “public-private partnership” to achieve certain objectives.
     These objectives could include using private sector investment for plant and
     equipment recapitalization at a Center, or promoting commercial business
     ventures at a Center. The Military Deputy stated that the Air Force pursued and
                                          11
achieved the investment encouraged by 10 U.S.C. 2474. In addition, the Military
Deputy cited a Comptroller General ruling that there is no improper augmentation
of an appropriation when the source providing the funds receives corresponding
benefit. The Military Deputy stated because Boeing’s investment provided a
benefit to Boeing by aiding Boeing’s ability to satisfy its performance obligation,
the investment would not amount to an improper augmentation.

On July 13, 2006, the Military Deputy, Office of the Assistant Secretary of the
Air Force (Acquisition) submitted additional comments stating that the Air Force
will modify the current contractual arrangement to reflect sound management
practices consistent with the recommendation. Specifically, the Air Force will
develop new contract clauses and/or modify all appropriate C-17 Globemaster III
Sustainment Partnership contract clauses to identify what core capability the
investment will cover; specify the work to be performed at the Air Logistics
Centers using the investment resources and track with appropriate metrics; and
identify the connection between the investment resources and the core work being
performed. The Military Deputy further stated that the Air Force will develop
policy that will require future Air Force public-private partnership contracts to
identify the resources being procured with private investment. The investments
will be linked to the enhancement of specific core capabilities and the core work
to be performed for contractors. The Military Deputy stated that the new policy
will be in place within 6 months of the date of this report. For the full text of the
Military Deputy, Office of the Assistant Secretary of the Air Force (Acquisition)
comments, see the Management Comments section of the report.

Audit Response. The additional comments are responsive and meet the intent of
the recommendation.

DoD Office of General Counsel Comments. Although not required to
comment, the Deputy General Counsel (Fiscal) provided comments in support of
the Air Force legal opinion. The Deputy General Counsel (Fiscal) stated that
under a public-private partnership agreement executed pursuant to 10 U.S.C.
2474(b)(2)(D), the Services may accept investments in the form of material,
equipment, labor, and data from the private businesses, without impermissibly
augmenting their appropriations. The Deputy General Counsel (Fiscal) based this
conclusion on the express terms of the cited subsection, the absence of any
indication in the legislative history reflecting a contrary congressional intent, and
the accepted cannon that remedial legislation, such as 10 U.S.C. 2474, should be
construed liberally to accomplish its intended purpose (improvement of the
industrial processes and business practices employed at DoD depot-level
activities). Accordingly, the Deputy General Counsel (Fiscal) opinion is that
Boeing’s investment in the Air Logistics Centers does not constitute an improper
augmentation of Air Force appropriations. For the full text of the DoD Office of
General Counsel comments, see the Management Comments section of the report.

Audit Response. We disagreed with the DoD Office of the General Counsel
comments. We contended that the meaning of 10 U.S.C. 2474(b)(2)(D) was clear
in the context of the entire statute, that Congress was providing definite and
limited tools whereby the Air Logistics Centers could sell their excess capacity to
industry and thereby become centers of excellence and invest the funds received
in plant, equipment, and commercial business ventures. We believed that if

                                     12
Congress had intended that the Air Force could receive and retain “investment
items,” and do so where no service is required to be performed by the Air Force,
no such provision was made in the statute. However, the additional management
comments on July 13, 2006 satisfied our overall concerns and we consider this
issue to be closed.

       2. Determine what investment items have been delivered to the Air
Logistics Centers, request the Defense Contract Audit Agency to validate the
amount that Boeing has spent on investments in the Air Logistics Centers,
make any necessary accounting corrections, and take other management
actions as required.

Management Comments. On March 14, 2006, the Military Deputy, Office of
the Assistant Secretary of the Air Force (Acquisition) nonconcurred. The
Military Deputy stated that the Air Force’s research into the history of the C-17
program and the policy in place at the time the strategy was formulated has
reaffirmed the Air Force’s position that the investment Boeing brought to the
partnership was appropriate at the time. On July 13, 2006 the Military Deputy
responded with additional comments that were responsive and met the intent of
the recommendation. See details of management comments to Recommendation
B.1.

Audit Response. The additional comments are responsive and meet the intent of
the recommendation.




                                    13
Appendix A. Scope and Methodology
   We evaluated whether Air Force officials used an appropriate methodology and
   rationale to award total system support responsibility for long-term sustainment of
   the C-17 Globemaster III to Boeing. Consequently, we focused the review on the
   strategy the Air Force used to make a long-term sustainment decision for the C-17
   and the subsequent award of the C-17 Globemaster III Sustainment Partnership
   contract to Boeing.

   We collected, reviewed, and analyzed documents dated from May 1996 through
   December 2005. Specifically, we evaluated acquisition and logistics documents
   that the Air Force used to support the long-term sustainment decision for the
   C-17. We also evaluated financial estimates for organic sustainment and
   contracting files for the C-17 Globemaster III Sustainment Partnership contract.
   We reviewed data the Defense Contract Audit Agency obtained from Boeing
   concerning cost and depreciation of investment items.

   We interviewed contracting and logistics personnel at the C-17 Program Office at
   Wright Patterson Air Force Base. We also interviewed logistics and financial
   personnel at Warner Robins ALC. We interviewed personnel from the Air Force
   Cost Analysis Agency on sustainment costs for the C-17 compared with other Air
   Force aircraft.

   We reviewed applicable contracting regulations including the Federal Acquisition
   Regulation, the Defense Federal Acquisition Regulation Supplement, and the Air
   Force Federal Acquisition Regulation Supplement. We also reviewed selected
   acquisition and logistics guidance on contractor logistics support and
   performance-based logistics.

   We performed this audit from June 2005 through January 2006 in accordance
   with generally accepted government auditing standards. The audit scope was
   limited to the acquisition decision to award the C-17 Globemaster III Sustainment
   Partnership contract.
   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Use of Technical Assistance. We did not require technical assistance for the
   execution of this audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. This report
   provides coverage of the DoD Contract Management high-risk area.




                                       14
Prior Coverage
    During the last 5 years, the Air Force Audit Agency has issued three reports
    discussing C-17 sustainment. Unrestricted Air Force Audit Agency reports can
    be accessed at www.afaa.hq.af.mil.

    Air Force Audit Agency Report No. F2002-0002-C06400, “C-17 Integrated
    Product Team Participation-Phase IV,” February 6, 2002

    Air Force Audit Agency Report No. F2002-0001-C06400, “C-17 Integrated
    Product Team Participation-Phase III,” December 7, 2001

    Air Force Audit Agency Report No. 99064023, “C-17 Integrated Product Team
    Participation-Phase II,” September 14, 2000




                                      15
Appendix B. C-17 Sustainment Strategy
Memorandum




                     16
Appendix B. C-17 Sustainment Strategy
Memorandum (cont’d)




                     17
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation
Director, Defense Procurement and Acquisition Policy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Commander, Air Force Materiel Command
  Commander, Aeronautical Systems Center

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Contract Management Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform



                                          18
Department of the Air Force Comments
                                       Final Report
                                        Reference




                                       Revised




                     19
20
21
22
23
24
Department of Defense Office of General
Counsel Comments




                      25
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Deborah L. Carros
Beth K. Schaefer
Kevin A. Palmer
Judy M. Chun
Jillisa H. Milner
